 Office of Inspector General
Corporation for
NATIONAL """"'. . . . .-
COMMUNITY
SERVICE




Semiannual Report To Congress
        October 1, 2011 - March 31, 2012

    Fiscal Year 2012 Semiannual Report No. 1
Audit Section ............................................................................................................ 5 
      Audit Results ................................................................................................................................ 6 
      Significant Audit Activity ............................................................................................................ 6 
      Audit Outreach Activity ............................................................................................................... 9 
      Draft Management Decisions With Which The OIG Disagreed ............................................... 9 

Investigations Section ........................................................................................... 13 
      Investigative Results ................................................................................................................. 14 
      Significant Cases and Activity.................................................................................................. 14 

Review of Legislation and Regulations ............................................................... 19 

Statistical and Summary Tables ........................................................................... 23 
      I.       Inspector General Act Reporting Requirements .......................................................... 24 
      II.     Reports With Questioned Costs ..................................................................................... 25 
      III.    Reports With Recommendations That Funds Be Put To Better Use .......................... 26 
      IV.     Summary of Audits with Overdue Management Decisions ......................................... 27 
      V.      Reports Described in Prior Semiannual Reports Without Final Action ...................... 28 




                               About The Office of Inspector General
In 1993, Congress created the Corporation for National and Community Service (Corporation), along
with this Office of Inspector General (OIG), in the National and Community Service Trust Act (42
U.S.C. §§ 12501-681). Independent of the agency we oversee, and led by a presidential appointee,
the OIG conducts audits and investigations of Corporation programs, including AmeriCorps,
Volunteers in Service to America (VISTA), the National Civilian Community Corps, and Senior Corps.
The OIG also examines Corporation operations, and State community service programs that receive
and distribute the majority of Corporation grant funds. Based on the results of our work, and in
addition to its audit reports and criminal and civil referrals based on our investigations, the OIG
recommends to the Corporation policies to promote economy and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
six months of Fiscal Year (FY) 2012. It is being transmitted to the Corporation’s Chief Executive
Officer, Board of Directors, and Members of Congress.




October 1, 2011 – March 31, 2012                                                                                                              1
March 31, 2012

I am pleased to share with you this Semiannual Report to Congress, which
highlights activities of the Office of Inspector General (OIG) for the first half of Fiscal
Year (FY) 2012. During this reporting period our Investigations Section opened 12
investigations, closed 20 investigations, 11 of these had significant findings, and
recovered more than $2.4 million of misused federal funds. In addition our Audit
Section issued 8 reports which identified $334,000 in funds that could be put to
better use.

In this report you will find highlights of specific investigations and audits that resulted
in savings to the taxpayer, along with recommendations we made to the to the
agency that are designed to strengthen internal controls and agency programs.

I wish to thank the staff of the OIG for their hard work and dedication during a
difficult first half of Fiscal Year 2012.




Kenneth C. Bach
Deputy Inspector General




October 1,2011 - March 31,2012                                                        3
                               Audit Section
The Office of Inspector General Audit Section is
responsible for reviewing the financial, administrative,
and programmatic operations of the Corporation for
National and Community Service. The Audit Section’s
responsibilities include auditing the Corporation’s
annual     financial   statements,     assessing     the
Corporation’s management controls, reviewing the
Corporation’s operations, and auditing individual grants,
contracts, and cooperative agreements funded by the
Corporation. All OIG audit reports are issued to
Corporation management for its action or information.
Audit Section


Audit Results


 During this reporting period, the OIG Audit Section issued 8 reports, as listed on
 page 9. There were three grantee audits issued during this period, which included a
 Social Innovation Fund grantee, a Senior Corps grantee, and a VISTA grantee.
 There were nine agreed-upon procedures/audits in process at the end of this
 reporting period. Our efforts also included the following reviews designed to improve
 overall Corporation operations


        An in-process audit of National Service Trust Payments to Financial and
         Education Institutions;

        An evaluation of the Corporation’s Compliance with Improper Payments
         Elimination and Recovery Act (IPERA)

        An audit of Earned Education Awards Resulting from Compelling Personal
         Circumstances; and

        An in-process evaluation of the Corporation’s Oversight and Resolution of
         OMB A-133 Reports.




Significant Audit Activity


 Audit of the Corporation for National and Community Service’s Fiscal Year
 2011 Financial Statements and National Service Trust Schedules

 This statutory audit of the Corporation’s FY 2011 Financial Statements and National
 Service Trust Schedules resulted in unqualified (“clean”) opinions, indicating that the
 financial statements and National Service Trust schedules were fairly presented, in
 all material respects, in conformity with generally accepted accounting principles,
 and that there were no instances of noncompliance with laws and regulations.
 However, the auditors identified a material weakness, which was last reported in FY
 2000, for the grant accrual estimates. This was due to the Corporation’s inadequate
 review process of its accrual calculation and resulted in a $177.7 million restatement
 of the FY 2010 Financial Statements. This material weakness was related to the
 Corporation’s overall internal control environment and assessment process, in which
 we expressed our concerns to the Corporation’s management throughout the fiscal
 year.



 6                                                  October 1, 2011 – March 31, 2012
                                                                 Audit Section

Evaluation of the Corporation’s Compliance with Improper Payments
Elimination and Recovery Act (IPERA)

In response to the President’s July 2010 mandate on implementing the IPERA, we
performed an evaluation of the Corporation’s compliance with IPERA. We found that
the Corporation’s reporting of its improper payment assessment in the Fiscal Year
(FY) 2011 Agency Financial Report was in compliance with the reporting
requirements prescribed by IPERA. However, we concluded that the Corporation’s
finding of a single improper payment of $2.14, with projected estimated improper
payments of $3,947, is underestimated and unreliable, based on the following
findings: (1) a key attribute for testing improper payments was removed from the
testing work papers and was not tested or considered in assessing improper
payments; and (2) the Corporation’s efforts to estimate improper payments did not
address all known weaknesses. The estimate reported by the Corporation was in
significant contrast to the significant improper payments identified by our audits and
investigations.

Based on our findings, we recommended that the Corporation refine its testing plan
to include attributes to verify that it did not make payments for unintended and
unallowable activities. We also recommended that the Corporation ensure that the
sample size utilized to analyze improper payments allows for sufficient and
comprehensive testing. We further recommended that the Corporation implement
testing procedures that completely and accurately identify the full extent of improper
payments by capturing improper payments identified in OIG audits and
investigations. We also recommended that the Corporation utilize its existing
monitoring tools, including quarterly reviews, internal control reviews, and
grantee/subgrantee monitoring reviews, to enhance the process of identifying and
recovering improper payments. The Corporation stated that our recommendations
will be considered in planning future IPERA assessments.


Audit of Awards of Partial Education Awards to AmeriCorps members for
Compelling Personal Circumstances

Recent OIG audits and investigations have repeatedly questioned costs for partial
education awards to AmeriCorps members who were early-exited by the programs
from their terms of service based on compelling personal circumstances (CPC). In
response to these repetitive findings, we initiated a cross-cutting, global audit
covering the entire population of CPC cases over a two-year period.

Our audit sought to determine whether the AmeriCorps members who exited the
program and were awarded a partial education award, received such an award
based on a valid CPC justification, as defined by Title 45 of the Code of Federal
Regulations § 2522.230. Additionally, we evaluated whether the AmeriCorps
programs maintained adequate supporting documentation to validate the CPC
award. We also assessed the Corporation’s internal controls surrounding the CPC’s
review and authorization process.
October 1, 2011 – March 31, 2012                                                 7
Audit Section


 Based on our results, we noted wide-spread noncompliance for 75 percent of the
 tested population, resulting in total questioned costs of $328,574, of which $120,352
 was identified as improper payments. Our findings cited invalid CPC justifications for
 the award, lack of supporting documentation, and monitoring control discrepancies.
 We also noted weaknesses in the Corporation’s and the AmeriCorps program’s
 ability to validate, review, and approve CPC cases. We recommended the
 Corporation disallow and recover the questioned costs, and implement monitoring
 controls requiring a secondary level of review of each approved CPC case. We also
 recommended the Corporation implement the text description functionality in its
 MyAmeriCorps Portal system to allow grantee and Corporation personnel to
 document the CPC justification.

 The Corporation disagreed with our recommendation to require secondary review of
 all CPC determinations. We believe that the Corporation currently lacks controls that
 would detect and prevent, on a real-time basis, the improper payments of partial
 education awards for ineligible members. Implementing a secondary review
 immediately following the AmeriCorps program’s submission of its’ members’ CPC
 approvals would allow the Corporation and State Commissions to independently
 evaluate and monitor CPC cases. In addition, errors could be identified in a timely
 manner, thereby minimizing the risk of improper payments, and preventing the
 Corporation from “paying and chasing” grant money for improperly certified awards.


 Fiscal Year 2011 Federal Information System Management Act (FISMA)
 Independent Evaluation

 We found that the Corporation took significant steps to enhance its information
 security program. Our evaluation included five recommendations to further improve
 the Corporation’s information security posture, including:

     •     Conduct annual assessments in a more structured, planned process;
     •     Develop a Service Level Agreement or provide an Information Security
           Certification and Accreditation documentation for a facility location;
     •     Include the ServiceNow server as part of the Corporation’s network boundary;
     •     Require all office directors to conduct semiannual office walkthroughs to detect
           instances of unsecured Personally Identifiable Information (PII); and
     •     Develop a record retention policy that directs the procedures required by National
           Archives and Records Administration and issue the policy to field office directors.

 The OIG agreed to the Corporation responses to our findings and recommendations.

 Management Alert – Audit of the Corporation’s Grants Awarded to Operation
 REACH, Inc. (ORI)

 The OIG presented a management alert to the Corporation in October 2011 to
 discuss our concerns and preliminary audit findings on an ongoing audit of grants
 awarded to New Orleans-based Operation REACH, Inc. (ORI). Representatives from
 8                                                     October 1, 2011 – March 31, 2012
                                                                  Audit Section

 the Alabama, Georgia, and Louisiana Commissions were also briefed. The audit
 covers all of the Corporation’s grants held by ORI (National Direct, State grants
 received from the Alabama, Georgia, and Louisiana State Commissions, Learn &
 Serve, and VISTA), for program years 2008-2009, 2009-2010, and 2010-2011. The
 management alert presented significant findings including: unreconciled differences
 between ORI’s general ledger and Federal Financial Reports, lack of central
 financial oversight, unallowable expenses, unsupported match expenses program
 costs, and in-kind valuation, improperly allocated expenses, unallowable and
 unsupported hours for ORI staff and AmeriCorps members, unsupported eligibility of
 AmeriCorps members, and unallowable service activities conducted by a VISTA
 member. We expect to issue a final ORI audit report during the next reporting period.

 Peer Review of National Science Foundation Office of Inspector General

 We conducted a quality control review of the audit operations of the Office of
 Inspector General, National Science Foundation (NSF). External peer reviews are
 conducted within the OIG community to evaluate the audit organization’s system of
 internal quality control and to ensure that it complies with generally accepted
 government auditing standards (the GAO Yellow Book). As part of the peer review,
 we evaluated the NSF OIG’s staff qualifications, their independence, audit work,
 training, and quality control procedures. NSF received a pass rating, the results of
 this peer review can be found on the NSF OIG’s website at www.nsf.gov/oig.


Audit Outreach Activity

 The Audit Section continued its efforts to keep the grantee community informed on
 OIG audit activities and systemic concerns impacting our mission of preventing and
 detecting waste, fraud and abuse in Corporation programs. In October 2011, we
 participated in a conference for recipients of Social Innovation Fund grant awards in
 fiscal year 2011. This conference, designed specifically for SIF awardees, presented
 critical information to the 27 attendees on effective financial management, allowable
 costs and internal controls. The OIG, represented by a veteran audit manager,
 reviewed SIF grant audit objectives, accounting system requirements, and the
 reporting and resolution processes. Our presentation also included a discussion of
 so-called “red flags” that typically trigger audits and investigations, as well as new
 compliance requirements for properly conducting criminal background checks on
 program participants.



Draft Management Decisions With Which The OIG Disagreed

 The OIG did not entirely concur with the Corporation’s Draft Management Decisions
 for the following reports:

       Report No. 11-07, Agreed-Upon Procedures for Corporation for National and
        Community Service Grants Awarded to Serve Alaska
 October 1, 2011 – March 31, 2012                                                 9
Audit Section

         Report No. 11-18, Agreed-Upon Procedures for Corporation for National and
          Community Service Grants Awarded to Alabama Governor's Office of Faith-
          Based and Community Initiatives

 Both reports found that the these State Commission’s subgrantees lacked adequate
 procedures for conducting searches of the National Sex Offender Public Registry
 (NSOPR), because the searches conducted by subgrantees did not cover all 50
 states. The Corporation’s Management Decision stated that the Federal regulations
 requiring the NSOPR check were met by the programs.

 Corporation guidance in two “Frequently Asked Questions” both state that, for links
 to States that are temporarily inoperative at the time of the check, it is a best practice
 to re-check the NSOPR at a later date to verify that the applicant is not a registered
 sex offender in those states. The OIG believes verifying all 50 states is required by
 the Kennedy Serve Act.

 The Management Decisions acknowledge that “Federal regulations require that the
 NSOPR check be conducted.” However, the management decisions further state,
 “[t]he regulations do not require that system connectivity be functioning for all 50
 states when the NSOPR is conducted”.

 Report No. 11-07 found that subgrantee NSOPR searches did not include a search
 of the member’s birth name. The Corporation’s Management Decision stated that
 searches based on both birth and married names are not required by the Kennedy
 Serve Act. The OIG believes performing both searches is a best practice the
 Corporation should require of its’ grantees and subgrantees to meet the intent of the
 Act.

 Given the need to protect vulnerable populations and prevent a sex offender incident
 from occurring in the Corporation’s programs, the Corporation’s guidance on the
 NSOPR searches should be consistent with the requirements of the Kennedy Serve
 Act. Conducting the NSOPR searches of all 50 states, and on both birth and married
 names of an applicant will ensure that applicants are suitable for service.




 10                                                   October 1, 2011 – March 31, 2012
                                                                            Audit Section


                               Octorber 1, 2011-March 31, 2012
 Report                                             Dollars       Dollars           Funds Put To
                       Report Name
Number                                            Questioned    Unsupported          Better Use
                                                                (Dollars in thousands)
 12-01    Audit of the Corporation for National           $0                 $0                    $0
          and Community Service's Fiscal Year
          2011 Financial Statements

 12-02    Audit of the Corporation for National           $0                 $0                    $0
          and Community Service's Fiscal Year
          2011 National Service Trust
          Schedules
 12-03    Audit of US Soccer Federation                   $0                 $0                    $0
          Foundation's Grant Financial
          Management System
 12-04    Audit of Earned Education Awards                $0                 $0              $329
          Resulting From Compelling Personal
          Circumstances

 12-05    Audit of Corporation for National and           $0                 $0                    $0
          Community Service Volunteers In
          Service to America (VISTA) Grants
 12-06    Federal Information Security                    $0                 $0                    $0
          Management Act (FISMA) Review for
          FY 2011
 12-07    Audit of Corporation for National and           $2                 $0                    $5
          Community Service Grants Awarded
          to Wayne County Action Program,
          Inc.
 12-10    Evaluation of the Corporation’s                 $0                 $0                    $0
          Compliance with Improper Payments
          Elimination and Recovery Act
          (IPERA)

                          TOTAL                            $2                $0               $334




October 1, 2011 – March 31, 2012                                                              11
               Investigations Section
The Office of Inspector General Investigations Section
is responsible for the detection and investigation of
fraud, waste, and abuse in Corporation for National and
Community Service programs and operations. The
Investigations Section carries out these responsibilities
by investigating allegations of criminal activities
involving the Corporation’s employees, contractors, and
grant recipients. Criminal investigations are presented
to the U.S. Attorney or, in some cases, the local
prosecutor for criminal prosecution and monetary
recovery. Some investigative reports are referred to
Corporation management for its administrative action or
information.
Investigations Section


Investigative Results


 During this reporting period, the OIG Investigations Section opened 12 new cases
 and closed 20, including 11 actions with significant findings. Our efforts resulted in
 the recovery of more than $2,422,785 in taxpayer funds and the potential recovery of
 more than $2 million from persons and programs found to have engaged in fraud,
 waste, or abuse of Corporation resources.

 Our investigations also resulted in the successful prosecutions of eleven targets who
 misused Federal grant funds for personal gain. All eleven plead guilty to violations of
 Federal law when confronted with the evidence developed by our Special Agents.

 We were assisted in our work during this period by 53 calls, letters and e-mails to
 our Fraud Hotline and by referrals from Corporation managers, employees and
 program participants.


Significant Cases and Activity


 We received an allegation that the Executive Director of an Oklahoma Foster
 Grandparent Program was utilizing program staff for services not related to the
 grant. The OIG, working jointly with personnel from the Corporation’s Field Financial
 Management Center, Philadelphia, PA, and Oklahoma state office determined that
 the grantee was unable to provide supporting documentation for expenditures it had
 claimed under its FGP grants between 2008 and 2010. On March 1, 2012, the
 Corporation issued a demand for payment letter to the grantee to recoup
 $1,133,297.76 in disallowed costs.

 We found that the Executive Director of an AmeriCorps program, which had been
 awarded more than $2 million in Federal funds through both State and National
 Direct grants during the period September 2005 and October 2008, could not
 account for more than $950,000 of those funds. This matter was referred to the
 Department of Justice (DOJ) Criminal Division, which declined prosecution due to
 the insufficiency of evidence and the availability of civil or administrative alternatives.
 The DOJ Civil Division also declined to take action based on the fact the neither the
 Executive Director nor the organization had assets sufficient to satisfy a judgment at
 any level. On January 4, 2011, we referred this matter to the Corporation for
 administrative action to recoup the funds. On October 13, 2011, the Corporation
 issued a demand for payment letter to the grantee to recoup $325,136.12, in
 unsupported grant funds. On November 28, 2011, the Texas OneStar Foundation
 issued a demand for payment letter to the grantee to recoup $569,131.41, in
 unsupported AmeriCorps State grant funds.

 An anonymous caller reported that a VISTA Executive Director in Arkansas
 submitted false documentation concerning the services being performed by the
 14                                           October 1, 2011 – March 31, 2012
                                                     Investigations Section

VISTA members. Our investigators found evidence that the Executive Director made
false statements to cause the disbursement of $122,284.60 of Federal funds when
he assigned VISTA members to service not authorized under the grant terms. The
United States Attorney’s Office declined to take criminal prosecution and also
declined civil action on the ground that that it did not appear economical to pursue
such action. The Corporation subsequently issued a demand for payment letter to
the grantee to recoup $96,059.16. This matter was referred to Corporation’s
Suspension and Debarment Official requesting debarment of the Executive Director.

Corporation management reported receiving information that an official at a VISTA
project in Puerto Rico was allowing its VISTA members to enroll at the local
university without having to perform full-time service in violation of the VISTA policy.
Our investigation disclosed that the VISTA supervisor knowingly enrolled VISTA
members that were also enrolled at the university in violation of the terms and
conditions of the VISTA program. The supervisor conspired with the VISTA
members to hide the fact that they were enrolled in the university when they
attended the VISTA orientation training. The VISTA supervisor and members
admitted they did not perform required service, resulting in a loss to the
Government. The United States Attorney’s Office (USAO) accepted this investigation
for prosecution. The supervisor plead guilty to the offense of False Statement and
was sentenced to 18 months of probation. The grantee, a Puerto Rican municipal
government, agreed to a settlement in the amount of $160,000 and the USAO
agreed to defer prosecution for eleven VISTA members under its Pretrial Diversion
Program (PDP) for a period of six months for the offenses of False Statement.

We received information that a GSA-approved contractor had submitted fraudulent
information in its contract proposal to the OIG. We found evidence that the president
of the contracting firm knowingly made misrepresentations and submitted false
documents to the OIG and the OIG relied on this fraudulent information when it
awarded the firm an audit contract in the amount of $141,693.49. The OIG issued a
termination for cause letter to the contractor and requested reimbursement of the
$85,683.03 already paid to it. The OIG duly received the reimbursement. The United
States Attorney’s Office declined to prosecute, citing the low-dollar amount involved.
We referred the matter to GSA, requesting they consider removing the contractor
from the GSA schedule.

The Georgia State Commission reported that, during a site visit, it discovered that an
AmeriCorps sub-grantee was failing to document the eligibility and background
checks of its’ members. Our investigation found that the sub-grantee lacked proper
eligibility documents, and had not conducted National Sex Offender Public Registry
and/or State criminal registry checks prior to the members’ enrollment. The OIG
questioned $59,000 in education awards made to the ineligible members. The
Corporation subsequently disallowed $23,905 and issued a demand for payment
letter to the grantee.

The OIG received a Fraud Hotline report that a Retired Senior Volunteer Program
(RSVP), in Louisiana was submitting false timesheets. Our Special Agents found
October 1, 2011 – March 31, 2012                                                  15
Investigations Section

 that the RSVP Executive Director had allowed the program’s Project Director to
 leave work early and record on her time sheet that she had completed a full work
 day, resulting in a loss of $3,391.50. The United States Attorney’s Office declined to
 prosecute, citing the low-dollar amount. The Corporation issued a demand for
 payment letter to the grantee to recoup the $3,391.50.

 The Corporation’s Florida State Office reported that a grantee operating two Retired
 Senior Volunteer Programs (RSVP) was falsely reporting the number of volunteers
 enrolled in its program. We reviewed the grantee’s financial drawdowns and
 expenditures found no indications of misuse of Federal program funds. However, we
 found that the grantee had failed to update its RSVP station rosters to actually reflect
 current number of volunteers and the locations they were serving. During our
 investigation we found that several of the service locations listed as active site
 reported not having any RSVP volunteers for several years. Some stations reported
 never having had RSVP volunteers at their location. Corporation management
 reported that the grantee relinquished its RSVP grants.

 The FBI received allegations that the AmeriCorps program official was engaging in
 fraudulent activity by allowing members to receive living allowances to which they
 were not entitled. A joint investigation with the FBI found that a few local criminal
 street gang members had enrolled in a Western New York AmeriCorps program.
 The gang members were engaged in intimidating other AmeriCorps members into
 joining their gang and one gang member was in a personal relationship with one of
 the program officials. Further, we discovered that several members were using illicit
 drugs and alcohol during their AmeriCorps service. Program management
 terminated the gang members, as well as the program official who had engaged in
 the inappropriate behavior. Additionally, program management hired a new
 controller to improve its internal controls. Finally, our investigation found no evidence
 that members received unauthorized AmeriCorps living allowance payments. We
 referred this matter to Corporation management for appropriate action.




 16                                                  October 1, 2011 – March 31, 2012
                                                              Investigations Section

                                   Summary Of Cases
  Opened and Closed
  Cases Open at Beginning of Reporting Period                                            35

  New Cases Opened                                                                       10

  Cases Closed this Period With Significant Findings                                     11

  Cases Closed this Period With No Significant Findings                                  9

  Total Cases Closed                                                                     20

  Cases Open at End of Reporting Period                                                  25

  Referred
  Cases Referred for Prosecution                                                         2

  Cases Accepted for Prosecution                                                         0

  Cases Declined for Prosecution                                                         2*

  Cases Pending Prosecutorial Review                                                     1*

  Cases Pending Adjudication                                                             3

  Recommendations to Management
  Investigative Recommendations Referred to Management                                   18


  Investigative Recommendations Pending this Reporting Period                            16


  Investigative Recommendations Pending from Previous Reporting Periods                  0


  * This includes cases referred for prosecution during the previous reporting period.




October 1, 2011 – March 31, 2012                                                         17
        Review of Legislation and
                     Regulations
Section 4(a) of the Inspector General Act directs the
Office of Inspector General to review and make
recommendations about existing and proposed
legislation and regulations relating to the Corporation’s
programs and operations. The Office of Inspector
General reviews legislation and regulations to determine
their impact on the economy and efficiency of the
Corporation’s administration of its programs and
operations.     It   also     reviews      and    makes
recommendations on the impact that legislation and
regulations may have on efforts to prevent and detect
fraud and abuse in Corporation programs and
operations. The Office of Inspector General draws on its
experience in audits and investigations as the basis for
its recommendations.
Review Of Legislation And Regulations


 Senior Corps Participation and Citizenship or Legal Residency Requirements

 During this reporting period, the OIG became aware of a rule enacted by the Welfare
 Reform Act of 1996 requiring that citizenship or legal residency be established
 for individuals to participate in grant programs that would provide to the individual a
 so-called “public benefit.” Aware that Seniors Corps programs, unlike other
 Corporation grant programs, have no citizenship or legal residency requirements for
 individuals to participate, we alerted Senior Corps management of this statutory
 provision, 8 U.S.C. § 1611, and advised that they undertake an evaluation as to
 whether the stipends, insurances, transportation assistance, and meals provided to
 Senior Corps participants constitute a “public benefit,” thereby requiring the program
 to institute eligibility rules based on citizenship or legal migration status.

 Without citing legal authority, the Corporation summarily responded to the OIG that
 the citizenship rules in the Welfare Reform Act apply only to those receiving “welfare
 payments” under “entitlement programs,” and that any assistance provided to Senior
 Corps participants is not such a payment, and so the citizenship rules do not apply.
 The Corporation then sought OIG’s concurrence for this view.

 The OIG declined to provide such a concurrence, and suggested that the
 Corporation reconsider the question. Pointing out that the U.S. Department of Health
 and Human Services issued guidance on interpretation of this Welfare Reform Act
 rule in 1998, -- guidance under which HHS determined that many of its own
 discretionary grant programs were in fact providing public benefits requiring a
 citizenship check, and not just HHS administered entitlement programs providing
 welfare payments -- we observed that one could readily conclude, based on HHS
 criteria, that Senior Corps assistance payments are also public benefits.

 The OIG alerted the Corporation management of this HHS guidance in January of
 this reporting period, and again in February. We will report on the Corporation’s
 response in a future reporting period.

 Corporation Policy Council

 The OIG continued its active participation in the Corporation’s Policy Council, which
 is charged with developing and amending internal policies covering all operations.
 During this period, we commented on a number of proposed polices, including its
 Grant Close-out Policy, its Internal Control Procedures Policy, and its policy on its
 Grant Application Review Process.

 With respect to the Grant Close-out Policy, the Corporation declined to accept our
 suggested changes, such as requiring that grant’s program staff review any OMB
 Circular A-133 audits for findings of questioned costs or program compliance
 violations and resolve those findings as part of the close-out procedure. The
 Corporation contended such findings are rare.

 20                                                 October 1, 2011 – March 31, 2012
                                                    Investigations Section

With respect to the Internal Control Procedures Policy, the Corporation reposted the
policy without any revisions and indicated that it will reinitiate the process of
proposing a new accountability and oversight infrastructure at the Corporation. For
the past several years, the OIG has advised the Corporation’s Senior Assessment
Team (SAT) on various issues related to its internal control assessment process and
the SAT functions through participation on the SAT team and through management
letters, and will make further recommendations to the revised Internal Control
Procedures Policy.

Also during this period, the Corporation accepted our suggested changes and
comments to its Staff Communication with Potential Applicants and Applicants
during Grant Application Review Process (GARP) Policy. Our comments on that
policy were based on the OIG final report Evaluation of the 2010 Social Innovation
Fund GARP and additional policy review.

During a prior reporting period, the OIG reviewed the Corporation’s Conference
Planning Policy to determine its adherence to the requirements of the Federal Travel
Regulation. The OIG found that the Corporation’s policy lacked the essential
planning criteria contained in the Federal Travel Regulation, which is designed to
ensure that conference costs result in the greatest financial advantage to the
Government. The Corporation’s policy was limited to instruction that a planner
consider three sites, and that the planner minimize administrative and travel costs by
limiting the number of Corporation attendees. During this reporting period, the
Corporation approved a new policy for this area under the title “Travel – TDY and
Conference Planning: CNCS Supplement to the Federal Travel Regulation (FTR).”
Other than requiring that the Corporation Chief Financial Officer approve attendees
and reimbursements, the new policy incorporates by reference the FTR, and directs
staff to consult the FTR for any question one may have regarding Conference
Planning.




 




October 1, 2011 – March 31, 2012                                                21
                          Statistical and
                        Summary Tables
The statistical and summary tables in this section are
submitted in compliance with the requirements
enumerated in the Inspector General Act.
Tables


I.          Inspector General Act Reporting Requirements

     This table cross-references the reporting requirements prescribed by the Inspector
     General Act of 1978, as amended, to the specific pages in the report where they are
     addressed.

          Section                            Requirement                                  Page
          4 (a)(2)    Review of legislation and regulations                                19

          5 (a)(1)    Significant problems, abuses, and deficiencies related to the     Throughout
                      administration of Corporation programs and operations

          5 (a)(2)    Recommendations with respect to significant problems,
                      abuses and deficiencies found in the administration of            Throughout
                      Corporation programs and operations

          5 (a)(3)    Prior significant recommendations on which corrective action         28
                      has not been completed
          5 (a)(4)    Matters referred to prosecutorial authorities                        14

          5 (a)(5)    Summary of instances where information was refused                None this
                                                                                         period
          5 (a)(6)    List of audit reports by subject matter showing dollar value of      11
                      questioned costs, unsupported costs and the dollar value of
                      recommendations that funds be put to better use

          5 (a)(7)    Summary of significant reports                                    Throughout

          5 (a)(8)    Statistical table showing number of reports and dollar value of      25
                      questioned costs

          5 (a)(9)    Statistical table showing number of reports and dollar value of      26
                      recommendations that funds be put to better use

          5 (a)(10)   Summary of each audit issued before this reporting period for        27
                      which no management decision was made by end of
                      reporting period

          5 (a)(11)   Significant revised management decisions                          None this
                                                                                         period

          5 (a)(12)   Significant management decisions with which the Inspector             9
                      General disagrees




     24                                                        October 1, 2011 – March 31, 2012
                                                                                            Tables


II.           Reports With Questioned Costs




                                                                          Federal Costs

                    Report Category                    Number   Questioned           Unsupported
                                                                          (Dollars in thousands)
      A.    Reports for which no management              11        $912                     $262
            decision had been made by the
            commencement of the reporting period

      B.    Reports issued during the reporting          1          $2                        $0
            period
      C.    Total Reports (A + B)                        12        $914                     $262

      D.    Reports for which a management               3         $34                       $20
            decision was made during the reporting
            period
            I. Value of disallowed costs                           $20                       $20

            II. Value of costs not disallowed                      $14                        $0

      E.    Reports for which no management              9         $880                     $242
            decision had been made at the end of the
            reporting period (C minus D)

       F.   Reports with questioned costs for which      5         $428                     $122
            no management decision or proposed
            management decision was made within
            six months of issuance




      October 1, 2011 – March 31, 2012                                                             25
Tables


III.         Reports With Recommendations That Funds Be Put To Better Use


                   Report Category              Number*        Dollar Value*
                                                           (Dollars in thousands)

        A. Reports for which no management          9                $348
           decision had been made by the
           commencement of the reporting
           period

        B. Reports issued during the                2                $334
           reporting period
        C. Total Reports (A + B)                   11                $681           **

        D. Reports for which a management           2                 $22
           decision was made during the
           reporting period
           i. Value of recommendations                                $0
           agreed to by management

            ii. Value of recommendations not                          $22
            agreed to by management

        E. Reports for which no management          9                $658
           decision had been made by the
           end of the reporting period


        F. Reports for which no management          4                $192
           decision was made within six
           months of issuance



       *The Audit Section predominately performed cost-incurred and compliance audits that
       resulted in questioned costs and noncompliance findings. These types of audits
       typically do not lead to recommendations that funds be put to better use.

       ** Minor Adjustments due to rounding.




   26                                                   October 1, 2011 – March 31, 2012
                                                                                                            Tables


IV.       Summary of Audits with Overdue Management Decisions

                                                                       Mgmt.
 Report                                       Federal Dollars         Decision       Status at End of Reporting
 Number                Title                   Questioned               Due               Period (09/30/11)
                                             (Dollars in thousands)
           Audit of Financial Management
                                                                                 The Corporation issued a Draft
           Systems of American
  11-10                                             $9,313            10/17/2011 Management Decision on 3/26/12 for
           Recovery and Reinvestment
                                                                                 this report and the OIG is reviewing it.
           Act Grantees

           Audit of the Corporation Grants                                      The Corporation has issued a Draft
  11-11    Awarded to the New York City             $67,222           1/25/2012 Management Decision on 3/1/2012 for
           Office of the Mayor                                                  this report and the OIG is reviewing it.

           Audit of the Volunteers in
                                                                                 The Corporation has issued a Draft
           Service to America (VISTA)
  11-13                                               $0              12/30/2011 Management Decision on 3/7/2012 for
           Budget Formulation and
                                                                                 this report and the OIG is reviewing it.
           Execution Processes
           Agreed-Upon Procedures of
           Corporation for National and
                                                                                 The Corporation has not issued a
           Community Service Grants
  11-14                                             $53,131           11/22/2011 Draft Management Decision for this
           Awarded to the Virginia Office
                                                                                 report.
           on Volunteerism and
           Community Service
           Agreed-Upon Procedures for
                                                                                The Corporation has not issued a
           Corporation for National and
  11-20                                            $262,038           3/12/2012 Draft Management Decision for this
           Community Service Grants
                                                                                report.
           Awarded to Colorado

                                                                                The Corporation has not issued a
           Audit of Corporation Funds
  11-21                                             35,903            3/29/2012 Draft Management Decision for this
           Awarded to the West Seneca
                                                                                report.

                       Total                       $427,607




October 1, 2011 – March 31, 2012                                                                                   27
Tables


V.      Reports Described in Prior Semiannual Reports Without Final Action




     Report                                                     Final Action
     Number                  Title                  Date Issued     Due

                                     None




 28                                           October 1, 2011 – March 31, 2012
             CORPORATION FOR NATIONAL AND
                  COMMUNITY SERVICE

     OFFICE OF INSPECTOR GENERAL

                               Hotline


                                             We Want You to
                                              Report Fraud,
                                            Waste and Abuse!



                           All information is confidential.

                           You may remain anonymous.


                1-800-452-8210
Contact us by e-mail:                                    Visit our web page:
hotline@cncsoig.gov                                       www.cncsoig.gov


                                    Or write:

                              OIG HOTLINE
    Corporation for National and Community Service
        1201 New York Avenue NW., Suite 830
                    Washington, DC
